audit report



Return to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Community Policing to Combat Domestic Violence Grant Administered by the City of Athens, Ohio
GR-50-99-012  
September 10, 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of the Community Policing to Combat Domestic Violence grant awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing Services (COPS), to the city of Athens, Ohio (City).  The City received a grant of $184,110 to implement a county-wide coordinated response to domestic violence in their rural community.  This grant was terminated by COPS on August 31, 1998.

	In brief, we determined that the City generally used grant funds in accordance with grant requirements.  However, grant activities were not always conducted in coordination with the grant partnering agency or according to the grant application.  In addition, we identified questioned costs totaling $8,682.  This included $6,090 of excess reimbursements, and $2,592 of grant funded computer equipment being used inconsistently with the grant application.
 
	These items are discussed in the Findings and Recommendations section of the report.  Our scope and methodology appear in Appendix I.